                                      SOCIAL SECURITY
MEMORANDUM

Date:      September 29, 2008                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Number Misuse for Work and the Impact on the Social Security
           Administration's Master Earnings File (A-03-07-27152)


           The attached final report presents the results of our audit. Our objectives were to
           determine whether (1) wage items associated with Social Security number misuse for
           work purposes were being posted to the Master Earnings File and (2) the Agency had
           established effective controls to detect such postings and prevent future occurrences.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                                 Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    SOCIAL SECURITY NUMBER MISUSE
   FOR WORK AND THE IMPACT ON THE
  SOCIAL SECURITY ADMINISTRATION’S
         MASTER EARNINGS FILE

    September 2008   A-03-07-27152




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                   Executive Summary
OBJECTIVE
To determine whether (1) wage items associated with Social Security number (SSN)
misuse for work purposes were being posted to the Master Earnings File (MEF) and
(2) the Agency had established effective controls to detect such postings and prevent
future occurrences.

BACKGROUND
The Social Security Administration (SSA) strives to prevent the issuance of fraudulent
and improper Social Security payments. Given that benefit payments are calculated
using earnings posted to the MEF, 1 SSA must take steps to ensure the MEF is
accurate. As part of the Annual Wage Reporting (AWR) process, SSA posts reported
earnings to the MEF if the name and SSN on the Wage and Tax Statement (Form W-2)
matches SSA’s Numident—the repository for all issued SSNs. If the name and SSN
combination reported on the Form W-2 does not match SSA’s records, the wage item is
posted to the Agency’s Earnings Suspense File (ESF)—a repository of unmatched
wage items. 2

The ESF also maintains records of wage items disclaimed by Social Security
Numberholders (NH) because of SSN misuse. For the purpose of this review, SSN
misuse is described as one person using another’s name and SSN for work purposes.
If a NH believes excessive wages have been posted to his or her earnings record, he or
she can contact SSA to disclaim these wages. An SSA employee with authority to
make earnings adjustments will manually remove the disclaimed wages from the
individual’s earnings record using SSA’s Item Correction (ICOR) 3 system and post them
to the ESF with a code that restricts the item from being reinstated to the individual’s
MEF record.

RESULTS OF REVIEW
For Tax Year 2004, SSA’s ESF contained approximately 111,000 wage items
representing about $1.1 billion in wages that were removed from the MEF because
about 49,000 NHs disclaimed the wage items. About 36,000 employers had reported

1
 The MEF contains all earnings data reported by employers and self-employed individuals. The data are
used to determine eligibility for, and the amount of, Social Security benefits.
2
 As of October 2006, the ESF had approximately 264 million wage items for Tax Years 1937 through
2004, representing about $586 billion in wages.
3
  SSA uses the ICOR system to maintain accurate postings to individuals’ earnings records. ICOR allows
the Agency to add unposted earnings and change or delete posted earnings on workers’ MEF records.
ICOR also permits the movement of posted earnings to and from the ESF.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)               i
these disclaimed wages to SSA. Nine of the top 10 employers who reported the highest
number of disclaimed wages were in the meat processing industry. SSA had
procedures to assist NHs whose identities were being misused such as placing newly
established fraud indicators on their Numident records and issuing new (different) SSNs
as appropriate. 4 However, we found the correspondence sent to these individuals
neither advised them about the effects of SSN misuse nor encouraged them to report
suspected SSN misuse to the Federal Trade Commission and law enforcement.

SSA had several processes to detect some instances of SSN misuse in its records,
such as isolating reporting anomalies related to children and deceased individuals
during the AWR process, reviewing earnings records for individuals who filed for Social
Security benefits, and conducting continuing disability reviews for work. However, SSA
needs to strengthen its controls to help prevent misuse of an SSN from continuing once
identified. We found the Agency’s employer correspondence processes and employer
liaison services did not inform employers about potential SSN misuse cases, although
employers play an essential role in detecting and preventing SSN misuse. Further, the
Agency had not established an automated process that would post to the ESF
subsequent wage items associated with SSN misuse. Instead, the Agency generally
relied on the public to inform it about repeated SSN misuse, and evidence showed this
did not always occur. Finally, the Agency’s employer verification programs had limited
ability to inform employers about instances where one person was using another’s
name and SSN to obtain employment. If SSA does not take additional steps to help
prevent SSN misuse from continuing, the misuse could lead to SSA making improper
Social Security payments to individuals.

CONCLUSION AND RECOMMENDATIONS
While SSA had controls to detect some instances of SSN misuse in its records, we
believe the Agency still has work to do. To assist victims of SSN misuse, the Agency
needs to improve its correspondence with individuals who disclaim wages to educate
them about the need to report suspected SSN misuse to the Federal Trade Commission
and law enforcement. Additionally, the Agency needs to inform employers about wage
items disclaimed by NHs to assist employers with detecting SSN misuse and preventing
its continuation. Finally, the Agency needs to establish an automated process that
posts subsequent wage items to the ESF when those items have the same
characteristics of previously disclaimed wages associated with SSN misuse.

We believe that if SSA takes these additional steps, it would reduce the risk that SSN
misuse would lead to SSA making improper Social Security payments to individuals.
Further, it could decrease the amount of staffing resources needed to manually remove
disclaimed wages, and if necessary, to adjust benefit amounts erroneously calculated
using these wages. Moreover, if SSA automated the posting of subsequent disclaimed




4
    In March 2007, SSA established the new fraud indicators.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)   ii
wages, the Agency would be more consistent in handling SSN misuse cases, and it
would reduce the burden for NHs to report the same SSN misuse to the Agency
repeatedly. Therefore, to improve SSA’s effectiveness in this area, we recommend
SSA:

•   Update the letter to NHs who disclaim wages to (1) advise them of the importance of
    reporting suspected SSN misuse to SSA each year to ensure their earnings records
    are accurate and (2) encourage them to report suspected SSN misuse to the
    Federal Trade Commission and law enforcement agencies.

•   Consider generating a standard letter to employers that notifies them annually of
    employees with disclaimed wages. This could be associated with the current ICOR
    letter process or a new letter process.

•   Provide disclaimed wage information to Employer Service Liaison Officers to
    enhance their assistance and outreach efforts with employers with wage reporting
    problems.

•   Consider the development of a cost effective method to automatically post to the
    ESF, subsequent wage items that have the same characteristics of previously
    disclaimed wage items.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of the Agency’s comments is
included in Appendix E.




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)   iii
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

Tax Year 2004 Disclaimed Wages .......................................................................... 3
    •    Top 10 Employers with Disclaimed Wages .................................................. 4

Assisting Victims of SSN Misuse ............................................................................. 5
    •    Profile of Victims of SSN Misuse .................................................................. 6
    •    Special Fraud Indicators .............................................................................. 8
    •    Correspondence for Disclaimed Wages ....................................................... 9

Detecting SSN Misuse in SSA’s Records.............................................................. 10
    •    Misuse of Children’s and Deceased Individuals’ SSNs .............................. 10
    •    Other Processes to Detect SSN Misuse ..................................................... 11

Preventing Repeated SSN Misuse ........................................................................ 12
    •    Employer Correspondence Process ........................................................... 12
    •    Employer Service Liaison Officers .............................................................. 13
    •    Automatic Posting of Disclaimed Wages .................................................... 13
    •    Employer Verification Systems ................................................................... 14

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 15

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Profile of Top 10 Employers
APPENDIX D – Earnings Correspondence
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)
                                                                        Introduction
OBJECTIVE
To determine whether (1) wage items associated with Social Security number (SSN)
misuse for work purposes were being posted to the Master Earnings File (MEF) and
(2) the Agency had established effective controls to detect such postings and prevent
future occurrences.

BACKGROUND
The Social Security Administration’s (SSA) strives to prevent the issuance of fraudulent
and improper Social Security payments. Given that benefit payments are calculated
using earnings posted to the MEF, 1 SSA must take steps to ensure the MEF is
accurate. As part of the Annual Wage Reporting (AWR) process, SSA posts reported
earnings to the MEF if the name and SSN on the Wage and Tax Statement (Form W-2)
matches SSA’s Numident—the repository for all issued SSNs. If the name and SSN
combination reported on the Form W-2 does not match SSA’s records, the wage item is
posted to the Agency’s Earnings Suspense File (ESF)—a repository of unmatched
wage items. 2

The ESF also maintains records of wage items disclaimed by Social Security
Numberholders (NH) because of SSN misuse. For the purpose of this review, SSN
misuse is described as one person using another’s name and SSN for work purposes.
If an NH believes excessive wages have been posted to his or her earnings record, he
or she can contact SSA to disclaim these wages. An SSA employee with authority to
make earnings adjustments will manually remove the disclaimed wages from the
individual’s earnings record using SSA’s Item Correction (ICOR) 3 system and post them
to the ESF with a code that restricts the item from being reinstated to the individual’s
MEF record. According to SSA, there are a number of reasons why disclaimed wages
occur, including, but not limited to: 4

      •   earnings for one individual are incorrectly reported to the record of another
          person having a similar surname or similar cross-referred surname;


1
 The MEF contains all earnings data reported by employers and self-employed individuals. The data are
used to determine eligibility for, and the amount of, Social Security benefits.
2
  As of October 2006, the ESF had approximately 264 million wage items for Tax Years (TY) 1937
through 2004, representing about $586 billion in wages.
3
  SSA uses the ICOR system to maintain accurate postings to individuals’ earnings records. ICOR allows
the Agency to add unposted earnings and change or delete posted earnings on workers’ MEF records.
ICOR also permits the movement of posted earnings to and from the ESF.
4
    SSA, Program Operations Manual System (POMS) RM 03870.045.C.1


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                 1
   •   an individual mistakenly or deliberately used the name and SSN of another
       individual;
   •   a family member mistakenly or deliberately used the name and SSN of another
       family member;
   •   an individual fraudulently uses someone else's documents and obtains a
       replacement SSN card with that person's name and number; or
   •   an individual lends or sells his/her or someone else's SSN card to another
       individual, such as an illegal alien who wants to obtain work in the United States.

SCOPE
To perform this review, we obtained a file of wage items for TY 2004 posted to the ESF
as of October 2006. The file included approximately 9.5 million suspended wage items
representing about $66 billion in wages. We extracted from the file all wage items that
were posted to the ESF with the code used for disclaimed wages (see Appendix B for
more details about our scope and methodology).




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)      2
                                                           Results of Review
For TY 2004, SSA’s ESF contained approximately 111,000 wage items representing
about $1.1 billion in wages that were removed from the MEF because about
49,000 NHs disclaimed the wage items. Approximately 36,000 employers had reported
these disclaimed wages to SSA. Nine of the top 10 employers who reported the highest
number of disclaimed wages were in the meat processing industry. SSA had
procedures to assist NHs whose identities were being misused such as placing newly
established fraud indicators on their Numident records and issuing new (different) SSNs
as appropriate. 5 However, we found the correspondence sent to these individuals
neither advised them about the effects of SSN misuse nor encouraged them to report
suspected SSN misuse to the Federal Trade Commission (FTC) and law enforcement.

SSA had several processes to detect some instances of SSN misuse in its records,
such as (1) isolating reporting anomalies related to children and deceased individuals
during the AWR process, (2) issuing annual Social Security Statements, (3) reviewing
earnings records for individuals who filed for Social Security benefits, (4) conducting
continuing disability reviews (CDR) for work, and (5) processing wage referrals received
from the Internal Revenue Service (IRS). However, SSA needs to strengthen its
controls to help prevent SSN misuse from continuing once identified. We found the
Agency’s employer correspondence processes and employer liaison services did not
inform employers about potential SSN misuse cases, although employers play an
essential role in detecting and preventing SSN misuse. Further, the Agency had not
established an automated process that would post to the ESF subsequent wage items
associated with SSN misuse. Instead, the Agency generally relied on the public to
inform it about repeated SSN misuse, and evidence showed this did not always occur.
Finally, the Agency’s employer verification programs had limited ability to inform
employers about instances where one person was using another’s name and SSN to
obtain employment. If SSA does not take additional steps to help prevent SSN misuse
from continuing, the misuse could lead to SSA making improper Social Security
payments to individuals.

TAX YEAR 2004 DISCLAIMED WAGES

As of October 2006, SSA’s ESF included about 111,000 disclaimed TY 2004 wage
items representing about $1.1 billion in wages related to approximately 49,000 NHs. 6
As shown in Figure 1, about 55 percent of the SSNs had 1 Form W-2 for which the
wages were later disclaimed by NHs. About 38 percent of the SSNs had disclaimed

5
    In March 2007, SSA established the new fraud indicators.
6
  The 111,000 disclaimed wage items represented .05 percent of the total wage items SSA received for
TY 2004. However, this percentage changes over time because individuals may disclaim wages many
years after they were reported to SSA. For example, as of October 2007, the number of disclaimed wage
items for TY 2004 increased from approximately 111,000 to 166,000 wage items, an increase of 55,000
items. The 166,000 wage items represent .07 percent of the total wage items SSA received for TY 2004.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                3
wages reported on 2 to 5 Forms W-2 and 7 percent of the SSNs had disclaimed wages
reported on 6 to 46 Forms W-2. We also determined many NHs disclaimed wages that
were reported by the same employer for multiple years (we discuss this on page 5 of
this report). Furthermore, since some instances of disclaimed wage items may not have
been recorded in the ESF as they may have been deleted, 7 the number of disclaimed
wage items might be slightly understated.

                               Figure 1: Disclaimed Wage Items
                                      in the TY 2004 ESF

                                       6% 1%



                                                                          1 W-2 per SSN

                                                                          2-5 W-2s per SSN

                                                                          6-10 W-2s per SSN
                                                              55%
                         38%                                              11-46 W-2s pe r SSN




Top 10 Employers with Disclaimed Wages

Approximately 36,000 employers had reported to SSA the 111,000 disclaimed wage
items for TY 2004. As shown in Appendix C, the top 10 employers reported 7,803
(7 percent) of the 111,000 disclaimed items representing approximately $116 million in
wages (10.5 percent). Of the top 10 employers, 9 were in the meat processing industry. 8
For these 9 employers, about 2 to 6 percent of the wage items in their TY 2004 wage
report was later disclaimed. For instance, the employer with the third highest number of
disclaimed items, a meat processing company in Georgia, had over 4 percent of its
TY 2004 wage report disclaimed by NHs. 9 This employer was a subsidiary of the
employer that reported the most disclaimed wages for TY 2004. Further review of the
employer showed the following:




7
 According to SSA staff, the agency conducted a study to evaluate disclaimed wages. Data showed that
some disclaimed earnings were deleted incorrectly (about 12 percent) instead of being moved to the ESF.
8
    The remaining company was an employment agency.
9
 We focused our review of the third top employer because it was a subsidiary of the top employer and
more of its payroll was disclaimed as compared to the top employer—4.2 percent versus 2.7 percent (see
Appendix C).


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                 4
     •    the 1,011 disclaimed wage items related to 995 NHs;
     •    the NHs ranged from 10 to 85 years old in 2004;
     •    about 96 percent of the NHs were U.S. citizens;
     •    as of August 2007, 31 of the 995 NHs were recorded as deceased in SSA records;
          and
     •    about 14 percent (138) of the NHs were receiving Social Security benefits in
          2007. 10

As shown in the Table 1, this employer also had 4.6 percent and 1.4 percent of its
reported wages disclaimed for TYs 2005 and 2006, respectively. About 39 percent of the
995 NHs who disclaimed the TY 2004 wages also disclaimed wages reported in
TYs 2005 and 2006. Therefore, these individuals appeared to have been victims of SSN
misuse for multiple years.

            Table 1: Multiple Years of Disclaimed Wages for Third Top Employer
                                Number of                 Number of
            Tax Year           W-2s Reported          Disclaimed Wages          Percentage
              2004                24,080                     1,011                  4.2
              2005                23,768                     1,084                  4.6
              2006                24,226                      344                  1.4a
         Note: The TY 2006 percentage appears significantly lower than the previous 2 years because
         of the timing of our review. We believe there are individuals who have yet to discover and
         disclaim the unearned wages for TY 2006.

ASSISTING VICTIMS OF SSN MISUSE

While the Agency had implemented steps to assist victims of SSN misuse, such as
establishing new fraud indicators on Numident records and issuing new SSNs as
appropriate, we believe improvements were still needed to assist these individuals.
Specifically, we found the correspondence sent to potential victims of SSN misuse
neither advised them about the effects of suspected SSN misuse nor encouraged them
to report the suspected SSN misuse to the FTC and law enforcement.




10
  We found 49 individuals were receiving benefits under Title II of the Social Security Act, 70 were
receiving Title XVI Supplemental Security Income, and 19 were receiving both benefits. The Title II
program provides benefits to qualified retired and disabled workers and their dependents, as well as
survivors of insured workers. Social Security Act § 201 et seq., 42 United States Code (U.S.C) § 401 et
seq. The Title XVI program provides cash assistance to individuals who have limited income and
resources and who are age 65 or older, blind or disabled. Social Security Act § 1601 et seq., 42 U.S.C. §
1381 et seq.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                    5
Profile of Victims of SSN Misuse

We focused our review on the employer with the third highest number of disclaimed
wage items in TY 2004. We found all 59 NHs who were receiving Social Security
benefits and had disclaimed the TY 2004 wages, representing approximately
$1.2 million, also had wages posted to their records from the same employer for at least
TYs 2005 and 2006. These additional questionable wages represented approximately
$1.3 million in wages for TY 2005 and about $1.1 million wages for TY 2006. 11 We
found that 58 of the 59 beneficiaries were receiving benefits because they were
disabled—23 were receiving benefits under Title II, 27 were receiving SSI, and 8 were
receiving both Title II and SSI. One of the beneficiaries was receiving Title II survivor
benefits.

Our review of SSA’s ICOR system showed all of the beneficiaries had informed SSA
they did not work for this employer. In fact, some of the beneficiaries stated someone
else was using their identity for work purposes. We compared the addresses of the
beneficiaries shown on SSA’s Master Beneficiary Records to the addresses shown on
the Forms W-2 to determine whether it appeared others were using the beneficiaries’
identities and found none of the addresses matched. 12 In all but one case, the
beneficiaries and the workers lived in different states. As shown in Figure 2, the
59 workers lived in Georgia, Alabama, North Carolina, South Carolina, and Florida,
which are the 5 states where the employer operated a facility. Conversely, the
beneficiaries lived in places such as California, Pennsylvania, New York, Iowa, Texas,
and Puerto Rico, which were hundreds of miles away from the workers and the
employer locations.




11
     We found 38 of the beneficiaries disclaimed the TY 2005 wages and 10 disclaimed the TY 2006 wages.
12
     We referred the 59 sample cases to SSA for review.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                 6
                     Figure 2: Addresses of Beneficiaries and Workers 13




                                                   Addresses of Workers
                                                   Addresses of Beneficiaries




Examples of the SSN misuse cases are discussed below.

•    A 31-year-old man who lived in Texas had been receiving both Title II and XVI
     disability benefits. He became eligible for benefits in 1990 when he was 14-years
     old. Although the beneficiary informed SSA, he had never worked for the third top
     employer, his earnings record included about $209,000 in wages for TYs
     1998 through 2006 that were reported by this employer. SSA removed all of these
     wages from his earnings record except for the TY 2006 wages. Further, he had
     about $706,000 in wages that were removed from his record for TYs 1989 through
     2005 that were reported by 57 other employers. SSA removed the disclaimed
     wages over an 11-year period beginning in 1996. The beneficiary was subject to
     five work CDRs because of the suspected SSN misuse (see page 10 for more
     details about work CDRs). On average, there were seven Forms W-2 posted to his
     record each year, which appeared to be excessive. Because of the posting of




13
   There were four cases where beneficiaries lived in Georgia or Florida. For the one Georgia case, the
beneficiary lived in Rome, Georgia, while the worker lived in Live Oak, Florida. For two of the three
Florida cases, the beneficiaries lived in Kissimmee and Miami, Florida, while the workers lived in Sumter,
South Carolina and Siler City, North Carolina. In the remaining Florida case, both the worker and
beneficiary lived in the State, but in different cities. The worker lived in Lee, Florida, while the beneficiary
lived in Avon Park, Florida, which are about 260 miles apart.



SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                           7
      unearned wages for TYs 2000 and 2001, it appeared the beneficiary was receiving
      higher Title II disability benefits than he was entitled to receive. 14 Because of
      administrative finality, the beneficiary will continue to receive the higher benefit
      payment. 15

•     A 34-year-old woman who lived in Puerto Rico had been receiving disability benefits
      since April 1995. 16 Although the beneficiary stated she never worked in the
      continental U.S., her earnings record included approximately $88,000 in wages for
      TYs 2001 through 2006 that were reported by the third top employer. Furthermore,
      she also had about $422,000 in wages posted to her record from 15 other employers
      for this same period that were later removed by SSA. On average, about seven
      different employers reported wages using her name and SSN each year. The
      beneficiary informed SSA on at least five separate occasions that she did not work
      for any of the employers. As a result of the SSN misuse, the beneficiary was subject
      to six work CDRs during the period of May 2002 through October 2007.

Special Fraud Indicators

In March 2007, SSA established two new fraud indicators that can be placed on the
Numident record if it has been determined an SSN has been obtained fraudulently or if
a NH has been a victim of SSN misuse and disadvantaged. 17 The placement of these
two indicators will block the issuance of replacement SSN cards and prevent the SSN
from being verified by the Agency’s verification programs. The fraud indicators will
result in a “no match” if an employer tries to verify the name and SSN combination using
either E-Verify (formerly the Basic Pilot) or SSA’s Social Security Number Verification
Service (SSNVS). Moreover, the assignment of fraud indicator 9 allows the issuance of
a new (different) SSN to victims of SSN misuse if they meet specific criteria. 18
However, the issuance of the new SSN does not prevent wage items reported with the
old SSN from being posted to the MEF. We reviewed the Numident records for the
14
     The TYs 2000 and 2001 wages were not removed from the NH’s earnings record until 2004.
15
   Administrative finality is the term SSA uses to describe the discretionary rules under which the Agency
revises previously issued monthly payments. In general, the Agency will revise initial determinations
regarding monthly Title II payments within 12 months for any reason, within 4 years for good cause, or at
any time if fraud or similar fault exists (see SSA, POMS, GN 04001.010). According to SSA, the purpose
of administrative finality is to (1) ease the administration of the program and (2) allow the public to be able
to rely on the Agency’s decisions (see SSA, Administrative Message AM-04020, February 3, 2004).
16
  SSA had determined the beneficiary was entitled to disability benefits in 1981 when she was 8 years
old and had received survivor benefits from her deceased father’s record at that time. When she reached
age 21 in 1995, SSA converted her to disability benefits.
17
  Special indicator 8 identifies an SSN that was determined to have been assigned based on fraudulent
documents or no documents and is only based on an Office of Inspector General (OIG) investigation.
Special indicator 9 identifies an SSN that was originally assigned to an individual when SSA assigns a
new (different) SSN because of SSN misuse and disadvantage.
18
  For example, the individual must provide proof of age, citizenship, and identity. Further, they must
provide evidence that they are being disadvantaged.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                          8
59 beneficiaries who appeared to be victims of SSN misuse and found that as of June
2008, none of the beneficiaries had a fraud indicator placed on their records since the
indicators were established. 19

Correspondence for Disclaimed Wages

SSA staff who assists NHs with disclaimed wages must notify them in writing about
adjustments to their earnings records. 20 For instance, when SSA corrects an earnings
record by removing a disclaimed wage item from the MEF using ICOR, a standard letter
must be generated notifying the NH about the adjustment and their rights if they
disagree with the action taken by SSA. 21 We found the letter did not address SSN
misuse even though SSA believes that it is one of the main reasons wage items are
disclaimed. Specifically, the letter did not advise individuals to contact SSA, to ensure
their records are accurate, if for any year, they believe questionable wages have been
posted to their records. If NHs fail to report or do not timely report questionable wages
to SSA, those wages could be used to calculate and/or qualify NHs for higher Social
Security benefits than they may be entitled to receive as shown in our example on
page 7 of this report.

Moreover, the letter did not encourage NHs to report suspected SSN misuse to the
Federal Trade Commission (FTC) 22 and law enforcement. 23 Instances of SSN misuse
should be reported to the FTC because (1) information reported can be used as part of
an Identity Theft Report, 24 which is an important tool in recovering from identity theft,




19
 It should be noted that some of these individuals might have visited SSA to disclaim wages prior to the
March 2007 implementation of the fraud indicators.
20
  The Code of Federal Regulation (C.F.R.) requires that SSA notify an individual regarding an
investigation determination on their earnings record. 20 C.F.R. § 422.125(e) Notice to individual of
determination.
21
     POMS RS 01405.005.A.7
22
   The Identity Theft and Assumption Deterrence Act of 1998 charged the FTC with taking complaints
from identity theft victims, sharing these complaints with federal, state, and local law enforcement, and
providing the victims with information to help them restore their good name. Public Law 105-318,112
Stat. 3007 (October 30, 1998).
23
  The Agency’s website includes detailed instructions for individuals who believe they are victims of
identity theft. The website instructs victims to (a) report theft to the FTC, (b) obtain a replacement or new
Social Security cards, as appropriate, and (c) notify the OIG if the identity theft involves the buying and
selling of Social Security cards or involves terrorism.
24
  The Identity Theft Report is a detailed police report that gives enough information about the crime for
the credit reporting companies and the businesses involved to verify that the person is a victim of identity
theft.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                        9
and (2) the information can help law enforcement catch identity thieves. 25 In
February 2008, the FTC issued a report, Consumer Fraud and Identity Theft Complaint
Data January – December 2007, which highlighted the complaints the FTC received in
2007. The report noted 14 percent of the nearly 258,000 identity theft complaints
received related to employment fraud. Although all 59 beneficiaries indicated to SSA
that someone else was using their identity for work purposes, we found, as of June
2007, only 1 of the beneficiaries reported suspected identity theft to the FTC. In
addition, we found only 19 of the 59 beneficiaries had an allegation reported to our
Office of Investigations.

DETECTING SSN MISUSE IN SSA’s RECORDS

SSA had several processes to detect wage items associated with SSN misuse,
including (1) isolating reporting anomalies related to children and deceased individuals
during the AWR process, (2) issuing annual Social Security Statements, (3) reviewing
earnings records for individuals who filed for Social Security benefits, (4) conducting
CDRs for work, and (5) processing wage referrals received from the IRS. Although
these processes will detect some instances of SSN misuse, they will not detect all
instances of SSN misuse. Therefore, it is likely that wages associated with SSN misuse
remain on SSA’s MEF.

Misuse of Children’s and Deceased Individuals SSNs

As part of the AWR process, SSA established edits to identify and post wages to the
ESF when the name and SSN combination reported on a Form W-2 belong to a young
child or a deceased individual. Under the Young Children Earnings Record (YCER)
process, SSA posts to the ESF wages reported with the valid name and SSN belonging
to children under the age of seven. For the Earnings After Death (EAD) process, when
a date of death is present on the Numident for a valid name and SSN combination, all
wage items reported for TYs after the year of death are placed in the ESF. 26

We have noted in prior audit reports that the YCER and EAD processes have identified
cases of suspected SSN misuse. Our October 2006 report on the YCER process
estimated that 72 percent of the 38,000 wage items posted to the ESF for TY 2002 with
an YCER indicator appeared to involve SSN misuse. 27 Moreover, our August 2002




25
  The FTC makes the identity theft complaints received from victims available to other federal, state, and
local law enforcement officials nationwide.
26
     See Appendix D for more details about YCER and EAD processes.
27
  SSA, OIG, Effectiveness of the Young Children’s Earnings Records Reinstatement Process
(A-03-05-25009), October 2006.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                    10
report on the EAD process noted that 33 percent of the EAD cases for TY 1998 showed
indications the deceased individuals’ identities were being used by others for work
purposes. 28

Other Processes to Detect SSN Misuse

In addition to the AWR edits mentioned previously, the Agency relies on the following
processes to identify wage-reporting errors resulting from SSN misuse. These
processes are beneficial because they can prevent SSA from erroneously calculating
benefits using wages that do not belong to NHs.

•     Social Security Statement: The Agency notifies NHs annually of their reported
      earnings history via the Social Security Statement. 29 The Statement provides
      individuals an opportunity to correct any earnings discrepancies. If the NH discovers
      excessive earnings on their record, they can contact SSA and request the wages be
      removed.

•     Review of Earnings Record When Applying For Benefits: When NHs visit SSA
      to apply for benefits, they are asked to verify their earnings record. If they provide a
      statement disclaiming any of the wages, they can be removed from the MEF record
      at that time and posted to the ESF.

•     CDR for Work: After deciding an individual is disabled, SSA policy requires
      evaluation of the impairment to determine whether the disability continues. SSA will
      conduct a CDR to determine whether individuals are still disabled. When earnings in
      excess of established tolerances are posted to a beneficiary's earnings record, the
      Continuing Disability Review Enforcement Operation will alert the case for possible
      work CDR action. 30 We found that for TYs 2004 through 2006, SSA conducted
      69 work CDRs for 32 of the 59 beneficiaries who disclaimed the wages. Each year,
      SSA may be unnecessarily using its limited resources to conduct work CDRs related
      to repeated SSN misuse.

•     IRS Wage Referrals: Each year, a number of workers contact the IRS to dispute
      earnings reported under their SSN and the associated taxes. If the IRS concurs with
      the worker, it sends a referral to SSA stating the reported wages do not belong to
      the worker. Upon receiving the wage referral, SSA uses ICOR to remove the
      disputed earnings from the worker’s earnings record. 31

28
  SSA, OIG, Effectiveness of the Social Security Administration’s Earnings After Death Process,
(A-03-01-11035), August 2002.
29
  Section 1143(c)(2) of the Social Security Act, 42 U.S.C. § 1320b-13(c)(2) requires that SSA provide an
annual statement to each eligible individual age 25 and older and who is not receiving benefits.
30
     SSA POMS, DI 40510.030.B.1
31
 SSA OIG, Follow-up: The Social Security Administration's Processing of the Internal Revenue Service's
Overstated Wage Referrals (A-03-07-17067), June 2008.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                  11
PREVENTING REPEATED SSN MISUSE

SSA needed to strengthen its controls to help prevent SSN misuse from continuing
once identified. Although employers play an essential role in detecting and preventing
SSN misuse within their payroll, the Agency’s employer correspondence processes and
employer liaison services did not inform them about disclaimed wages associated with
SSN misuse. Further, we found the Agency had not established an automated process
to post to the ESF subsequent wage items that appeared to involve SSN misuse.
Instead, the Agency generally relied on the public to inform it about questionable wages
repeatedly posted to the MEF, and evidence showed this did not always occur. Finally,
the Agency’s employer verification programs had limited ability to inform employers
about instances where one person was using another’s name and SSN to obtain
employment.

Employer Correspondence Process

SSA sends the following correspondence to employers to notify them about wage
reporting problems.

•    Educational Correspondence: As part of the AWR process, SSA notifies
     employers concerning mismatched names and SSNs through its Educational
     Correspondence (EDCOR). 32 When SSA processes Forms W-2 with names and/or
     SSNs that does not match SSA’s records, it posts the wage item to the ESF and
     sends a letter to the employer based on a certain threshold. 33 These letters do not
     include wage items that are later disclaimed by NHs because the letters only
     address name and SSN mismatches. Usually disclaimed wages occur after the
     EDCOR letters have been sent to employers, so employers could not be made
     aware of disclaimed wages as part of the EDCOR process. For example, the
     employer with the third highest number of disclaimed wage items in TY 2004 had
     over 4 percent of its payroll in the ESF. Although the employer received an EDCOR
     notice, it did not include the 1,011 wage items that were disclaimed by NHs and
     posted to the ESF. On average, the wages in question were disclaimed 7 months
     after being reported to SSA.

•    Employer Letters: SSA staff assisting NHs with disclaimed wages can notify
     employers about disclaimed wages through the ICOR process. According to SSA’s
     policy for resolving disclaimed wages, SSA staff can send a letter to the employer to



32
  SSA also sends employers a Decentralized Correspondence (DECOR) letter when the employee’s
address shown on the Form W-2 is missing or not complete (see Appendix D for details about the
DECOR and EDCOR letters).
33
  SSA sends EDCOR letters to all employers who submitted more than 10 Forms W-2 that SSA could not
process, and the mismatched forms represent more than 0.5 percent of the total Forms W-2 reported on
an employer’s wage report.



SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)             12
     identify the individual who may be misusing the SSN. 34 The letter states that
     apparently two or more persons have used the same SSN and one of these persons
     worked for the employer. However, through discussions with SSA staff and our
     review of SSA records, we found these letters were seldom sent to employers to
     resolve disclaimed wages in their payroll. We found that the Dallas Region
     generated its own letter for employers when NHs disclaimed earnings items.
     However, this letter was specific to the Dallas Region and did not appear to be a
     practice throughout the rest of the country.

Employer Service Liaison Officers

SSA also maintains a group of experts, identified as Employer Service Liaison Officers
(ESLO), who work with employers on wage reporting problems. 35 At the end of the
AWR cycle, the ESLOs receive a centrally generated report listing all employers with
addresses in their respective region who reported 100 or more items posted to the ESF
because the name and SSN combination did not match SSA’s records. However, since
this top 100 listing is run in June of each year following the receipt of the wages, it is too
early to capture disclaimed wages. Wages may be disclaimed years after employers
have reported them to SSA. Hence, disclaimed wage items will not be in the ESF when
the top 100 listing is generated for ESLOs. However, we believe nothing prevents an
ESLO from reviewing the reported earnings of employers in their region to review
disclaimed earnings from prior TYs. For instance, if an ESLO was already planning to
contact an employer about some suspended earnings, they could generate an ESF
report for this same employer prior to such a visit and review the number of disclaimed
wages. Moreover, SSA could centrally generate such disclaimed wage reports related
to the past 5 years when it provides the ESLO with the June top 100 listing. In this way,
the ESLOs are made aware of all problematic trends related to employers in their
regions.

Automatic Posting of Disclaimed Wages

SSA did not have a process that automatically posts to the ESF subsequent wage items
that appeared to be associated with SSN misuse. Generally, the Agency relied on NHs
to report questionable wages repeatedly posted to their MEF record. However, we
found that NHs did not always disclaim the subsequent wages or they disclaimed the
wages years after being reported to SSA. For example, as of June 2007, 21 of the
59 NHs who disclaimed the TY 2004 wages reported by the third top employer still had
wages posted to their MEF records from this same employer for TY 2005. We believe



34
   SSA POMS, RM 03870.048.A.6. The Employee Identification Statement (Form SSA-4156) can be sent
to employers to enlist their help in resolving earnings discrepancies.
35
  SSA maintains ESLOs in regions throughout the United States to (1) answer employers’ questions on
wage reporting submissions; (2) encourage employers to use SSA’s various programs, such as the
employee verification programs; and (3) conduct wage-reporting seminars, in partnership with the IRS, for
employers.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                  13
there could be various reasons why these individuals did not disclaim the subsequent
wages, such as they were unaware of the posted wages or they believed the
discrepancy was resolved since they had already reported the SSN misuse to SSA.

We spoke with Systems staff about the feasibility of developing an edit that would
automatically post subsequent wages to the ESF that have the same characteristics as
previously disclaimed wages. According to System staff, they were in the analysis
phase for developing an automated process that would allow subsequent wage items to
be posted to the ESF if there was an indication that wages reported with a name/SSN
combination were previously disclaimed by the NH. This project was in the early stages
at the time of our review and Systems staff had yet to conduct a cost benefit analysis.

We believe SSA needs to move forward with this project because the wages associated
with SSN misuse could lead to SSA making improper payments to individuals as
previously discussed. Further, the implementation of the automated edit should
decrease the amount of resources needed to manually remove disclaimed wages from
the MEF, and if necessary, to adjust benefit amounts erroneously calculated using
these wages. 36 Finally, by implementing the automatic edit routine, SSA would be more
consistent in handling SSN misuse cases, and it would reduce the burden for NHs to
report the same SSN misuse to the Agency repeatedly.

Employer Verification Systems

Existing employer verification programs, such as E-Verify and SSNVS, cannot detect
most instances of SSN misuse when individuals attempting to find employment
improperly provide valid names and SSNs. 37 The verification programs generally detect
instances where the name and SSN combination does not match SSA records.
However, the “E-Verify” program, currently available to employers nationwide, was
recently enhanced to include a Photo Screening Tool feature, which allows an employer
to check the photos of a new hire's Employment Authorization Document or Permanent
Resident Card ("Green Card") against images stored in the Department of Homeland
Security’s immigration databases. This additional feature could assist in detecting
instances where one person is trying to use another’s valid name and SSN combination.




36
  When the Agency learns from individuals that an earnings record may be incorrect, an SSA employee
with authority to make initial determinations regarding wage evidence reviews the evidence. If the
evidence is sufficient, the employee takes corrective actions to change the earnings record. Further, if
the removed wages are used in the calculation of benefits, an alert is generated for the appropriate SSA
office to review the beneficiary’s records and manually adjust their benefit amount as needed.
37
   SSA OIG, Controls Over Employee Verification Programs, (A-03-06-15036), September 2007. We
noted in the report E-Verify and SSNVS could not detect the misuse of a valid name/SSN combination
(for example SSN misuse).


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                   14
                                                   Conclusions and
                                                  Recommendations
While SSA had controls to detect some instances of SSN misuse in its records, we
believe the Agency still has work to do. To assist victims of SSN misuse, the Agency
needs to improve its correspondence with individuals who disclaim wages to educate
them about the need to report suspected SSN misuse to the Federal Trade Commission
and law enforcement. Additionally, the Agency needs to inform employers about wage
items disclaimed by NHs to assist employers with detecting SSN misuse and preventing
its continuation. Finally, the Agency needs to establish an automated process that
posts subsequent wage items to the ESF when those items have the same
characteristics of previously disclaimed wages associated with SSN misuse.

We believe that if SSA takes these additional steps, it would reduce the risk that SSN
misuse would lead to SSA making improper Social Security payments to individuals.
Further, it could decrease the amount of staffing resources needed to manually remove
disclaimed wages, and if necessary, to adjust benefit amounts erroneously calculated
using these wages. Moreover, if SSA automated the posting of subsequent disclaimed
wages, the Agency would be more consistent in handling SSN misuse cases, and it
would reduce the burden for NHs to report the same SSN misuse to the Agency
repeatedly. Therefore, to improve SSA’s effectiveness in this area, we recommend
SSA:

1. Update the letter to NHs who disclaim wages to (1) advise them of the importance of
   reporting suspected SSN misuse to SSA each year to ensure their earnings records
   are accurate and (2) encourage them to report suspected SSN misuse to the
   Federal Trade Commission and law enforcement agencies.

2. Consider generating a standard letter to employers that notifies them annually of
   employees with disclaimed wages. This could be associated with the current ICOR
   letter process or a new letter process.

3. Provide disclaimed wage information to Employer Service Liaison Officers to
   enhance their assistance and outreach efforts with employers with wage reporting
   problems.

4. Consider the development of a cost effective method to automatically post to the
   ESF, subsequent wage items that have the same characteristics of previously
   disclaimed wage items.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of the Agency’s comments is
included in Appendix E.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)   15
                                           Appendices




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)
                                                                          Appendix A

Acronyms
 AWR               Annual Wage Reporting
 CDR               Continuing Disability Review
 C.F.R.            Code of Federal Regulation
 DECOR             Decentralized Correspondence
 DHS               Department of Homeland Security
 EAD               Earnings After Death
 EDCOR             Educational Correspondence
 ESF               Earnings Suspense File
 ESLO              Employer Service Liaison Officer
 FTC               Federal Trade Commission
 ICOR              Item Correction
 IRS               Internal Revenue Service
 MEF               Master Earnings File
 NH                Numberholder
 OIG               Office of the Inspector General
 POMS              Program Operations Manual System
 SSI               Supplemental Security Income
 SSN               Social Security Number
 SSA               Social Security Administration
 SSNVS             Social Security Number Verification Service

 TY                Tax Year

 U.S.C.            United States Code

 YCER              Young Children’s Earnings Record


 Forms
 Form W-2          Wage and Tax Statement




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)
                                                                          Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    (OIG) reports.

•   Reviewed polices and procedures related to disclaimed wages and earnings
    discrepancies.

•   Obtained a file of wage items that were posted to the Earnings Suspense File (ESF)
    for Tax Year (TY) 2004 as of October 2006. The file included about 9.5 million
    suspended wage items representing about $66 billion in wages. We extracted from
    the file all wage items posted to the ESF with a code used for disclaimed wages.

•   Identified the 10 employers with the highest number of disclaimed wage items for
    TY 2004 and determined the following:

       o type of Industry,
       o number of wage items posted to the ESF for TY 2004, and
       o number of wage items reported to SSA for TY 2004.

•   Selected for review the third top employer with disclaimed wage items for TY 2004
    and determined the following:

       o number of Social Security numberholders (NH) who disclaimed the wage
         items;
       o age of the NHs;
       o citizenship status of the NHs;
       o place of birth for NHs;
       o number of NHs who were receiving Social Security benefits; and
       o number of disclaimed wages items for TYs 2005 and 2006.

•   Reviewed all 59 NHs who disclaimed wages reported by the third top employer,
    were receiving Social Security benefits, and had wages posted to their earnings
    record from the third top employer for TYs 2005 and 2006. For the 59 NHs, we:

       o reviewed the Numident record to verify name, date of birth, and age;

       o compared the addresses shown in Master Beneficiary Record and
         Supplemental Security Record to the Wage and Tax Statement (Form W-2);



SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)   B-1
       o reviewed SSA’s Item Correction system to determine why wages were
         disclaimed;

       o reviewed the OIG’s National Investigative Case Management System to
         determine whether SSN misuse was reported for the cases; and

       o reviewed the Federal Trade Commission’s Consumer Sentinel Network to
         determine whether identity theft was reported for the cases.

We found the data used for this audit were sufficiently reliable to meet our audit
objectives. The entity responsible for the maintenance of the ESF is the Office of
Earnings, Enumeration and Administrative Systems under the Deputy Commissioner for
Systems. Our work was conducted at the Philadelphia Audit Division, Philadelphia,
Pennsylvania, between March 2007 and June 2008. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)   B-2
                                                                                       Appendix C

      Profile of Top 10 Employers
      As of October 2006, the Social Security Administration’s (SSA) Earnings Suspense File
      (ESF) contained about 111,000 disclaimed Tax Year (TY) 2004 wage items
      representing about $1.1 billion in wages that related to approximately 49,000
      numberholders (NH). Approximately 36,000 employers had reported these disclaimed
      wage items to SSA. We found the third top employer was a subsidiary of the top
      employer with disclaimed wage items. As shown in the table below, the top
      10 employers reported 7,803 (7 percent) of the 111,000 disclaimed items representing
      approximately $116 million in wages (10.5 percent). Of the top 10 employers, we found
      9 were in the meat processing industry and one was in the employment industry. For
      these10 employers, we found the NHs later disclaimed up to about 6 percent of their
      TY 2004 payroll.

                Table: Top Ten Employers with Disclaimed Wages Tax Year 2004

                                            Total
                                         Disclaimed       Total       Total       TY 2004   Percent of Percent of
                               Total ESF   Wages       Disclaimed    Wages         Wage     Disclaimed     ESF
Count      Industry      State   Items    (millions)      Items     (millions)     Items     Items(a)   Items(b)
         Meat
  1      Processing      TX       7,384        $18.9      1,286         $109.8    47,633       2.7%          15.5%
         Meat
  2      Processing      MD       1,468        $16.9      1,142          $18.9    30,798       3.7%          4.8%
         Meat
  3      Processing      GA       1,133        $15.5      1,011          $17.0    24,082       4.2%          4.7%
         Meat
  4      Processing      AR         839        $12.4       771           $13.0    49,622       1.6%          1.7%
         Meat
  5      Processing      GA         817        $10.3       763           $10.8    13,889       5.5%          5.9%
         Meat
  6      Processing      MN         819        $14.2       738           $15.7     25,887      2.9%          3.2%
  7      Employment      NY      25,701         $3.1       623          $102.9    480,860      0.1%          5.3%
         Meat
  8      Processing      AR         609         $8.3       548             $8.9   36,076       1.5%          1.7%
         Meat
  9      Processing      CO         573         $8.1       502             $9.0   14,398       3.5%          4.0%
         Meat
  10     Processing      KS         465         $7.8       419            $8.6     6,643       6.3%          7.0%
Total                           39,808        $115.6      7,803         $314.8    729,888
      Note a: The percent of disclaimed items was determined by dividing the total disclaimed items by the
      TY 2004 wage items.
      Note b: The percent of ESF items was determined by dividing the total ESF items by the TY 2004 wage
      items.




      SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)
                                                                                   Appendix D

Earnings Correspondence
The Social Security Administration (SSA) sends out millions of letters to employers and
employees each year requesting additional information to correct suspended wage
items. The four main letters sent to employers and employees are (1) Decentralized
Correspondence (DECOR), (2) Educational Correspondence (EDCOR), (3) Earnings
After Death (EAD), and (4) Young Children’s Earnings Record (YCER).

•   DECOR: When wage items are posted to the Earnings Suspense File (ESF), SSA’s
    system generates letters to employees and employers. The purpose of DECOR
    letters is to query employees and employers to resolve Social Security number
    (SSN) and/or name discrepancies. While these letters are usually mailed to
    employees, letters are mailed to an employer if there is no address for the
    employee. SSA reviews the returned DECOR letters, validates the information
    provided, and if appropriate, removes the wage item from the ESF for posting to an
    individual’s Master Earnings File (MEF) record. 1 If individuals do not respond to
    DECOR letters, their information goes through the FERRET operation. 2

•   EDCOR: When SSA processes a Wage and Tax Statement (Form W-2) report with
    a name and/or SSN that does not match SSA’s records, it sends a letter to the
    employer. These letters state that SSA received wage items that could not be
    validated and list up to 500 SSNs in an attachment but do not provide names. SSA
    requests employers file corrected Form(s) W-2 to correct the error(s). The letters
    sent to employers also specify that mismatches do not imply that incorrect
    information was intentionally provided and the letter is not a basis, in and of itself, for
    an employer to take any adverse action against an employee. SSA is sending
    EDCOR letters to all employers who submitted more than 10 Forms W-2 that SSA
    could not process, and the mismatched forms represent more than 0.5 percent of
    the total Forms W-2 reported to SSA. 3

1
 For more on this edit, see the following SSA Office of the Inspector General (OIG) reports: Effectiveness
of the Social Security Administration’s Decentralized Correspondence Process (A-03-01-11034),
July 2002; and Effectiveness of Decentralized Correspondence Sent to Employers (A-03-06-26096),
September 2006.

2
 The FERRET operation is a process using the employee address elements to match the Internal
Revenue Service individual master file (Form 1040) addresses to obtain valid SSNs.

3
  In Tax Year (TY) 2006, EDCOR letters were to include a Department of Homeland Security (DHS) insert
that would have required employers to take timely action in responding to EDCOR letters to avoid liability
under immigration laws. However, in October 2007 the U.S. District Court granted an injunction based on
a lawsuit filed by labor advocacy organizations, preventing SSA from mailing EDCOR letters reflecting
DHS’s Final Rule entitled, Safe Harbor Procedures for Employers Who Receive a No-Match Letter.
Because of the lawsuit challenging DHS's worksite enforcement regulation, SSA decided not to issue TYs
2006 and 2007 EDCOR letters.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)                  D-1
•   EAD: SSA also has processes in place to detect unusual earnings reports where
    earnings relate to someone recorded as deceased on SSA's records. Under the
    EAD process, when a date of death is present on the Numident, all earning items
    reported for tax years after the year of death are placed in the ESF. The earnings
    are also transmitted to an EAD investigative file so letters can be printed and mailed
    to employers and/or earners. Employer responses are returned to SSA for
    processing. If the employer states the individual was working for them, SSA sends a
    letter to the employee requesting he or she visit a field office to correct his or her
    earnings information. At the field office, staff interviews the individual and verifies
    his or her identification. If the evidence appears valid, SSA personnel reinstate the
    wages to the proper Master Earnings File (MEF) account. If the employer states the
    wage earner is deceased, SSA informs the employer to refund the employee's share
    of the Social Security taxes to the employee's estate or next of kin, and the relevant
    wages will remain in the ESF. We reviewed the EAD process in a prior audit. 4

•   YCER: Another unusual earnings pattern monitored by SSA relates to young
    earners. Under the YCER process, SSA checks the date of birth for the SSN on
    each earnings report. If a date of birth indicates the numberholder of the SSN is a
    child under age 7, the earnings will be placed into the ESF. When the Form W-2
    reporting process is complete, an YCER investigate file is generated to determine
    whether the earnings belong to the reported SSN; that is, a child under age 7. SSA
    sends YCER letters to employers and employees. Employer responses are returned
    to SSA for processing. If the employer states the numberholder’s SSN, name and
    date of birth agree with SSA’s records, the wages are reinstated to the
    numberholder. If the employer states the numberholder’s name and SSN are the
    same as SSA’s records, but the date of birth is different, a form is sent to the
    numberholder advising him or her to contact the local SSA office to correct the
    discrepancy. If the employer states the name and/or SSN is different from SSA’s
    records, the information is further researched. If the employer does not return the
    form or states the numberholder of the SSN did not work for them, a letter is sent to
    the numberholder of the SSN asking him or her to contact the local SSA field office.
    We reviewed the YCER process in a prior audit. 5




4
 SSA OIG, Effectiveness of the Social Security Administration’s Earnings After Death Process
(A-03-01-11035), August 2002.
5
 SSA OIG, Effectiveness of the Young Children's Earnings Records Reinstatement Process
(A-03-05-25009), October 2006.


SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)           D-2
                                                                          Appendix E

Agency Comments




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)
                                        SOCIAL SECURITY
MEMORANDUM


Date:     September 18, 2008                                                    Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     David V. Foster /s/
          Executive Counselor to the Commissioner

Subject   Office of the Inspector General (OIG) Draft Report, “Social Security Number Misuse for Work
          and the Impact on the Social Security Administration’s Master Earnings File” (A-03-07-7152)—
          INFORMATION

          We appreciate OIG’s efforts in conducting this review. Attached is our response to the
          recommendations.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


          Attachment




          SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)      E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “SOCIAL SECURITY NUMBER MISUSE FOR WORK AND THE IMPACT
ON THE SOCIAL SECURITY ADMINSTRATION’S MASTER EARNINGS FILE”
(A-03-07-27152)


Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Update the standard letter to the numberholders who disclaim wages to: 1) advise them of the
importance of reporting suspected Social Security Number (SSN) misuse to the Social Security
Administration each year to ensure their earnings records are accurate; and 2) encourage them to
report suspected SSN misuse to the Federal Trade Commission and law enforcement agencies.

Comment

We agree. The Item Correction (ICOR) system does not currently capture the reason for
corrected wages. Therefore, we will evaluate the systems changes needed to annotate corrected
wages to reflect “disclaimed wages,” and send an appropriate notice with special language for
those individuals whose records have been annotated to show they have disclaimed the wages.
Implementation of any changes identified during the evaluation would be dependent on the
availability of agency resources.

Recommendation 2

Consider generating a standard letter to employers that notifies them annually of employees with
disclaimed wages. This could be associated with the current ICOR letter process or a new letter
process.

Comment

We agree. We will assess the feasibility and systems resources needed to generate a notice to
employers that would notify them of employees with disclaimed wages.

Recommendation 3

Provide disclaimed wage information to Employer Service Liaison Officers to enhance their
assistance and outreach efforts with employers with wage reporting problems.

Comment

We agree. We will evaluate the steps necessary and resources required to automate a process to
share disclaimed wage information with the Employer Service Liaison Officers so that they may
educate employers as needed.




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)            E-2
Recommendation 4

Consider the development of a cost effective method to automatically post to the Earnings
Suspense File subsequent wage items that have the same characteristics of previously disclaimed
wage items.

Comment

We agree. We will evaluate the systems resources needed to implement the proposed process
and the potential effects on our operations to determine whether the proposed changes are cost-
effective, feasible, and desirable. We believe disclaimed wage items identified in this proposed
process would invariably be the result of “identity theft” or “fraud” and the OIG, Office of
Investigation should receive referrals for these items. Therefore, implementing an automatic
process would require a wide range of resources, in addition to system costs, throughout the
agency.




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)          E-3
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Cylinda McCloud-Keal, Director (215) 597-0572

   Carol Madonna, Audit Manager (215) 597-1485

Acknowledgments
In addition to those named above:

   Damon Mahoner, Auditor-in-Charge

   Brenda Williams, Senior Auditor

   Richard Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-07-27152.




SSN Misuse for Work and the Impact on the SSA’s Master Earnings File (A-03-07-27152)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
